No. 19-158
In the

Supreme Court of the United States
MARCUS TURNER, SR., et al.,
Petitioners,
v.
ALVA C. HINES, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the DC Circuit

BRIEF IN OPPOSITION
Seth A. Rosenthal
Calvin R. Nelson
Venable LLP
600 Massachusetts Avenue, N.W.
Washington, DC 20001
(202) 344-4000

Mitchell Y. Mirviss
Counsel of Record
Peri Tenenbaum
Venable LLP
750 East Pratt Street,
Suite 900
Baltimore, MD 21202
(410) 244-7400
mymirviss@venable.com

Counsel for Respondents
November 4, 2019
291170

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Respondents, eighteen congregants of Beulah Baptist
Church in the District of Columbia (the “Church”), sued
Petitioners for tort claims alleging misappropriation of
Church funds and waste of Church assets to benefit the
Church’s pastor. In an unreported per curiam decision,
the D.C. Court of Appeals affirmed the trial court’s denial
of a motion to dismiss, holding that the claims could
be adjudicated under neutral principles of law without
implicating matters of religious doctrine or church
governance, which are shielded from judicial intervention
by the ecclesiastical abstention doctrine of the First
Amendment. Two core questions arise from the Petition:
1. Do the D.C. Court of Appeals and any other courts
exclude claims ffecting church governance from their test
for applying the ecclesiastical abstention doctrine?
2. Does the ecclesiastical abstention doctrine
completely bar litigation of tort claims seeking to redress
Petitioners’ pilfering and waste of church funds if remedies
sought by the complaint potentially touch upon church
governance?

ii
PARTIES TO THE PROCEEDINGS
Respondents concur with Petitioners’ statement of
the parties to the proceedings (Pet. iii), with one addition.
The Columbia Bank, located in Columbia, Maryland and
a subsidiary of Fulton Financial Corporation, is a named
defendant and current party to the proceedings.

iii
RULE 29.6 CORPORATE
DISCLOSURE STATEMENT
All Respondents are individuals.

iv
RULE 12(b)(iii) LIST OF PROCEEDINGS
The Petition’s statement of related proceedings (Pet.
iv) is complete.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
RULE 2 9.6 CORPOR ATE DISCLOSURE
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
RULE 12(b)(iii) LIST OF PROCEEDINGS  . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OVERVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
A. Facts. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. Proceedings Below.  . . . . . . . . . . . . . . . . . . . . . . . . 9
REASONS FOR DENYING THE WRIT . . . . . . . . . . 12
I.

No Split of Authority Exists as to the
Standards for Applying the Ecclesiastical
Abstention Doctrine. . . . . . . . . . . . . . . . . . . . . . . 13
A. Hosanna-Tabor Already Decided this
Question. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

vi
Table of Contents
Page
B. T he D i st r ic t of C olu mbi a , t he
Circuits, and the Other States All
follow Hosanna-Tabor. . . . . . . . . . . . . . . . . . 14
II. No Spl it of Author ity Ex ist s as t o
Whether Courts May Consider Remedies
W hen Apply ing the Minister ial
Exception . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
C. This Case Does Not Cleanly Present
the First Amendment Issues. . . . . . . . . . . . 31
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

vii
TABLE OF CITED AUTHORITIES
Page
Cases:
Alicea v. New Brunswick Theological Seminary,
608 A.2d 218 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Combs v. Cen. Tex. Annual Conf. of the United
Methodist Church,
173 F.3d 343 (5th Cir. 1999) . . . . . . . . . . . . . . . . . . . . 22
Costello Pub. Co. v. Rotelle,
670 F.2d 1035 (D.C. Cir. 1981) . . . . . . . . . 18, 23, 29, 31
EEOC v. Catholic Univ. of Am.,
83 F.3d 455 (1996) . . . . . . . . . . . . . . . . . . . . . . . . . 18, 23
F.G. v. MacDonell,
696 A.2d 697 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Family Federation for World Peace v. Moon,
129 A.3d 234 (D.C. 2015)  . . . . . . . . . . . . . . . . . . . . . . 18
Feliciano v.
Roman Catholic and Apostolic Church,
200 DPR 458 (P.R. 2018)  . . . . . . . . . . . . . . . . . . . . . . 29
Greater Fairview Missionary Baptist Church v.
Hollins,
160 So. 3d 223 (Miss. 2015)  . . . . . . . . . . . . . . . . . . . . 30

viii
Cited Authorities
Page
Griffin v. Cudjoe,
276 P.3d 1064 (Okla. Ct. App. 2012)  . . . . . . . . . . . . . 12
Harris v. Matthews,
643 S.E.2d 566 (N.C. 2007)  . . . . . . . . . . . . . . . . . 26, 27
Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. E.E.O.C.,
565 U.S. 171 (2012)  . . . . . . . . . . . . . . . . . . . . . . . passim
Jones v. Wolf,
443 U.S. 595 (1979)  . . . . . . . . . . . . . . . . . . 19, 23, 24, 31
Kedroff v. Saint Nicholas Cathedral of Russian
Orthodox Church in N.A.,
344 U.S. 94, 116 (1952)  . . . . . . . . . . . . . . . . . . . . passim
Martinelli v.
Bridgeport Roman Catholic Diocesan Corp.,
196 F.3d 409 (2d Cir. 1999) . . . . . . . . . . . . . . . 19, 20, 21
McKelvey v. Pierce,
800 A.2d 840 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Md. & Va. Eldership of the Churches of God v.
Church of God at Sharpsburg,
396 U.S. 367 (1970)  . . . . . . . . . . . . . . . . . . . . . . . . 19, 24

ix
Cited Authorities
Page
Minker v. Baltimore Annual Conf. of United
Methodist Church,
894 F.2d 1354 (D.C. Cir. 1990) . . . . . . . . . . . . 18, 23, 24
Pardue v. Ctr. City Consortium Sch. of
Archdiocese of Washington, Inc.,
875 A.2d 669 (D.C. 2005)  . . . . . . . . . . . . . . . . . . . . . . 18
Petruska v. Gannon Univ.,
462 F.3d 294 (3d Cir. 2006) . . . . . . . . . . . . . . . . . . . . . 20
Presbyterian Church v. Mary Elizabeth Blue
Hull Presbyterian Church,
393 U.S. 440 (1969) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Rweyemamu v. Cote,
520 F.3d 198 (2d Cir. 2008) . . . . . . . . . . . . . . . . . . . . . 20
Samuel v. Lakew,
116 A.3d 1252 (D.C. 2015) . . . . . . . . . . . . . . . . . . . . . . 28
Schmidt v. Catholic Diocese of Biloxi,
18 So. 3d 814 (Miss. 2009) . . . . . . . . . . . . . . . . 24, 25, 26
Second Episcopal Dist. African Methodist
Episcopal Church v. Prioleau,
49 A.3d 812 (D.C. 2012) . . . . . . . . . . . . . . . . . . . . . . . . 18
Steiner v. Am. Friends of Lubavitch,
177 A.3d 1246 (D.C. 2018) . . . . . . . . . . . . . . . . . . . . . . 18

x
Cited Authorities
Page
United Methodist Church v. White,
571 A.2d 790 (D.C. 1990)  . . . . . . . . . . . . . . . . . . . . . . 18
Watson v. Jones,
13 Wall. 679 (1872) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Westbrook v. Penley,
231 S.W.3d 389 (Tex. 2007)  . . . . . . . . . . . . . . . . . . . . 24
Statutes and Other Authorities:
U.S. Const. Amend. I.  . . . . . . . . . . . . . . . . . . . . . . . passim

1
OVERVIEW
The Petition for Writ of Certiorari fails on both legal
and factual grounds. Petitioners invent a split of legal
authority from decisions that apply the same well-settled
legal standard to different sets of facts. To manufacture
that split, they mischaracterize the allegations in this case
as an internal dispute over church governance, when, as
the D.C. courts correctly found, Plaintiffs challenge the
unauthorized, ultra vires misappropriation and waste of
Church assets.
Petitioners ask this Court to revisit the standard for
applying the ecclesiastical abstention doctrine. According
to Petitioners, courts are divided as to whether to apply
(i) a two-part test asking first whether a plaintiff’s claims
can be decided according to neutral principles of law
without implicating religious doctrine, and then asking
whether adjudication still would entangle the court in
matters of church governance, or (ii) a one-part test
that ignores the second prong, interference with church
governance. In other words, Petitioners maintain that
certiorari must be granted because the circuits and state
courts of last resort allegedly disagree as to whether the
ecclesiastical abstention doctrine prohibits adjudication
of claims that intrude into matters of church governance.
This supposed divide is fictitious. This Court already
has resolved the issue. In Hosanna-Tabor v. E.E.O.C., this
Court definitively held that the ecclesiastical abstention
doctrine shields against entanglement w ith both
ecclesiastical canon and church governance. Moreover,
well before Hosanna-Tabor, the three purported “onestep” jurisdictions, including the District of Columbia,

2
recognized that the ecclesiastical abstention doctrine
prohibits adjudication of claims that entangle courts
in matters of church governance, even where doctrinal
principles are not implicated. Conversely, the purported
“two-step” jurisdictions cited by Petitioners apply the
same “neutral principles of law” test that the D.C. Court
of Appeals applies; they simply did so in contexts that,
on the facts, involved church governance considerations.
In other words, Petitioners dress up case-specific factual
differences to create the false appearance of conflicting
legal standards. No schism exists here. Far from presenting
questions affecting “millions of Americans,” Pet. 32, the
D.C. Court of Appeals rendered an unexceptional decision
that applies settled law to claims alleging pilfering and
waste of church property.
The purported split on the second issue presented
is equally fanciful. According to Petitioners, D.C. and
Puerto Rico law prohibit courts from considering whether
a complaint’s requested remedies unconstitutionally
interfere with church affairs. But Petitioners’ only cited
cases are the case below, which is an unreported per
curiam decision that makes no broad pronouncement
about remedies, and a single Puerto Rico decision, which
apparently failed to “concentrate” sufficiently on remedies
to satisfy Petitioners. See Pet. 28-30. These case-specific
quibbles fall far short of a “significant split,” Pet. 28,
warranting this Court’s review.
Because there is no issue, let alone a circuit split, as to
whether claims implicating church governance are covered
under the ecclesiastical abstention doctrine, and likewise,
no genuine question whether requested remedies can be
considered as part of the trial court’s analysis, Petitioners
have raised no legitimate issue for review.

3
Petitioners’ presentation of the facts supporting
their manufactured split of authority, is equally divorced
from reality. This case does not challenge any duly
authorized actions of the Church and its leaders. As
the lower courts recognized, it seeks to redress rogue,
unauthorized, ultra vires actions of two church officials,
Petitioners Dr. Marcus Turner, Sr. and Russell Moore,
Jr., who surreptitiously misappropriated, wasted, and
misused Church property for years, frequently using an
affiliated secular nonprofit corporation, Petitioner Beulah
Community Improvement Corporation (“BCIC”), as their
vehicle. Adjudication of Respondents’ claims requires zero
reliance on religious doctrine and no interference with
church operations; instead, the claims merely require
application of well-settled, neutral common law principles
that forbid conversion and obligate fiduciaries to refrain
from taking self-interested, injurious, and unauthorized
actions with organizational assets. Respondents do not
seek to impose “secular control or manipulation” of
Beulah through litigation.” (Pet. 2). Rather, they seek to
restore the assets that Turner, Moore, and BCIC have
compromised and to put a stop to the fleecing of the
Church.
Petitioners conspicuously ignore the disturbing
allegations of their financial impropriety and fail to cite
a single federal or state case that prohibits a court from
adjudicating claims seeking recovery of misappropriated
and wasted assets on the ground that they intrude
into church affairs. In other words, Petitioners raise
no unsettled question of law that addresses the core
allegations in the case—and indeed cannot do so given
the many cases holding such allegations of malfeasance
to be justiciable.

4
Beyond the absence of a viable disputed issue of law,
several complicating facts make this case unfit for a grant
of certiorari. First, contrary to Petitioners’ portrayal,
the principal remedies sought in this case, including an
accounting and damages, are for the recovery of funds and
are not confined to prospective relief that would curtail
the ability of the two individual Petitioners to control
the Church’s finances. Because those principal remedies
do not intrude on church governance and do not make
this case non-justiciable, the propriety of this secondary
remedy must await the resolution of liability. Second,
Petitioners ignore the fact that many of the complaint’s
claims involve the misconduct and misuse of Petitioner
BCIC, a secular corporation that was created for the
express purpose of obtaining and utilizing government
funds that the First Amendment renders unavailable to
the Church itself. It is far from clear that BCIC enjoys
First Amendment protection, and so the First Amendment
issue here is not as clean or uncomplicated as Petitioners
suggest. Third, Petitioners and their amici question
Respondents’ standing to bring suit. The D.C. Court of
Appeals expressly deferred ruling on the standing issue
due to the limited pre-discovery record, and the trial
court recently has decided to resolve that issue before
proceeding any further with the litigation. Accordingly,
not only is there no litigated issue (or developed record)
for this Court to review, it is possible that the lower court
might ultimately dismiss the case for a reason having
nothing to do with the First Amendment.
For all of these reasons, the Petition does not merit
serious consideration by this Court.

5
STATEMENT OF THE CASE
A. Facts.
Founded in 1909, the Church is a pillar of D.C.’s
Deanwood Heights community. (App. 72). Turner has
served as its pastor since 1999. Id. Moore is a former
chair of the church’s board of trustees and a BCIC board
member. (App. 77). At all pertinent times, the Church
was governed by a constitution adopted in 1997 (the “1997
Constitution”). (App. 79). That constitution designated
the pastor as the Church’s spiritual leader but vested
decision-making power over the Church’s financial and
administrative affairs in a “Trustee Board,” which had
responsibility for, inter alia, reviewing and approving
contracts and legal documents; determining and paying
staff salaries, including Turner’s compensation; paying
the Church’s debts; hiring non-cleric staff; providing
an annual audit of financial records; and acquiring,
maintaining, repairing, and replacing all Church property.
Id. Two other official boards assisted the Church in its
ministry. Id. The three official boards were required to
meet monthly as a “Joint Board” to share information on
the Church’s condition, act on matters approved by the
Church, and prepare recommendations to the Church
for action; the pastor was required to attend meetings
and provide recommendations. Id. All board members
were elected by the Church membership, and Church
members had the right to vote on all matters affecting
the status of the Church. Id. Though Petitioners dispute
that the pastor’s authority was so constrained, see Pet.
12, the amended complaint’s allegations on this point are
clear and thus controlling.

6
With Moore’s assistance, Turner depleted Church
assets without the knowledge or required authorization
of the Church membership, the Trustee Board, or the
Joint Board. He used Church funds for his own personal
benefit, including charging to the Church credit card his
personal expenses such as meals, fuel for his personal car,
dry cleaning, vacations, personal lawn care, and exorbitant
cell-phone bills, which included home Internet and cable.
(App. 80-83, 89-90, 98-99). Turner had the Church pay for
his own continuing education, his wife’s education, and his
son’s tuition, including $14,000 in tuition payments. (App.
81-82). Turner also had the Church cover his personal
tax liabilities, including $3,000 in 2008, and premiums
for life insurance policies for both himself and his wife.
Id. At least twice, he used Church funds to pay his wife
$500 for delivering speeches to the congregation. Id. None
of these payments was disclosed to or authorized by the
Trustee Board, and funds were surreptitiously diverted
from other accounts to pay for them. Id.
In 2008, Turner was experiencing financial difficulties.
(App. 82). With the aid of Moore, he obtained payments
totaling $75,000 as “consulting fees” for purportedly
serving as a real estate “consultant” for the Church and
BCIC in securing government grants to acquire property
for BCIC. Id. Moore subsequently helped Turner receive
a $35,000 bonus, purportedly for helping the Church save
money. (App. 83). None of these payments was authorized
by the Trustee Board, the Joint Board, or the membership.
(App. 82-83).
In addition to depleting liquid assets, Turner misused
vital real-property assets without authorization. Since
1976, the Church had owned free-and-clear the lot

7
on which its main building was located (the “Church
Property”). (App. 83). Again with Moore’s assistance,
Turner had the Church purchase at least seven properties
in Deanwood Heights and enter into a series of successive
agreements encumbering the Church Property, the
most recent of which was for a loan of $3,250,000 to the
Turner-run nonprofit affiliate, BCIC. Not only did Turner
violate the 1997 Constitution by failing to consult or seek
approval for any of these transactions, but he concealed
them from the congregation and the Church boards
and instead consistently represented that the Church
Property remained debt-free and that he never would
place the Property at risk. (App. 83-84, 87). Moreover,
to assign the Church Property as collateral, Turner
directed the Church’s financial secretary to execute
the deed, guarantee, and other papers on behalf of the
Church (Turner signed on behalf of BCIC), although she
had no authority to do so. (App. 85-86). At his behest, and
also without authority, she similarly signed documents
that secretly disposed of a valuable adjacent lot, which
was transferred to BCIC for free, and another valuable
lot, which was transferred to another Turner-controlled
entity. (App. 86-87, 94-95). All of these transactions were
kept secret until years later, when, in 2014, a Washington
Post notice disclosed that the Church Property would be
auctioned in a foreclosure sale. Id.
By using the Church Property as collateral for the
BCIC loan, Turner compromised the Church’s most vital
asset, which proved disastrous. Under Turner’s control,
BCIC repeatedly defaulted on the loan, leading to a
series of foreclosure notices and subsequent forbearance
agreements, ultimately culminating in the 2014 auction
notice. (App. 94-95). Other Church properties, including

8
the two valuable lots, were sold to fend off foreclosure.
(App. 95).
There was more. In 2011, Turner, again aided by
Moore, entered into yet another secret, unauthorized
loan agreement (this time for $900,000) encumbering the
Church Property. (App. 89-90). Although it ostensibly
was obtained to renovate the Church’s kitchen and other
facilities, the contracts for that work totaled only $380,000,
of which Turner paid the contractor only $162,500, telling
the contractor that the Church lacked additional funds.
Id. He also persuaded the contractor to loan an additional
$105,000, stating that the Church and BCIC needed funds
to pay the debt on the Church Property. Subsequently,
however, Turner refused to pay the contractor anything
more and claimed that the $105,000 loan was a “donation.”
(App. 90, 95-96). Eventually, the contractor sued the
Church, BCIC, and Turner, and the Church had to settle
and incur legal fees in the process. Id.
In 2009, even before learning of Turner’s secretive
machinations with the Church Property, the Church
membership became alarmed when they discovered
Turner’s profligate personal spending and the Church’s
financial distress. As a result, they asserted stricter
controls over Turner, including taking away his credit
card, strictly defining and limiting his compensation, and
requiring regular financial reports; they also replaced
Moore as chair of the Trustee Board. (App. 87-88). The
financial condition of the Church improved, but Turner,
chafing under these limits, harassed and drove out the
reform leaders, regained de facto control of the Church’s
affairs, and restored Moore as Trustee Board chair. (App.
88). Moreover, with the assistance of Moore, their wives,

9
and several allies, Turner drafted new bylaws abolishing
the Trustee Board and Joint Board and formally giving
him virtually unfettered authority to control the Church,
both directly and through a new Board of Elders comprised
of himself and two hand-picked appointees, one of which
was Moore. (App. 92-93). The new bylaws were adopted
in 2012 without following required procedures. (App. 92).
Thereafter, Turner halted disclosure of financial
information to the congregation. (App. 93-94). Nevertheless,
it is evident that the Church remains in financial distress.
It no longer provides many of the supplies and services
it once did, e.g., basic repair and maintenance of Church
facilities, full funding for positions like sexton, scholarships
for graduating seniors, a sufficient number of Bibles and
hymnals, Sunday school books and snacks, and tuition for
Vacation Bible School. (App. 96).
B. Proceedings Below.
In March 2015, following prior litigation by church
members against Turner and others, and by Turner
against those members and their counsel, Respondents—
eighteen members of the Church—filed a complaint in the
Superior Court of the District of Columbia (the “superior
court”) against Turner, Moore, BCIC, and Columbia Bank,
(which had accepted the financial secretary’s signature on
the collateral documents that encumbered the Property).
A first amended complaint filed in June 2015 provides the
operative allegations at issue. (App. 68-107). It asserted
claims for breach of fiduciary duty, conversion, and unjust
enrichment against Turner and Moore; conspiracy against
Turner, Moore, and BCIC; negligence against the bank;
an accounting of finances against Turner, Moore, and

10
BCIC; and a declaratory judgment that the Church’s
obligations under the 2008 loan are void and unenforceable.
Respondents’ prayers for relief seek a declaration that
the loan obligations are void; an injunction prohibiting
Turner and Moore from making decisions regarding
Church assets; a full accounting of Petitioners’ financial
records; a declaration that the Church’s current bylaws
are null because they were not adopted in accordance with
the terms of the 1997 Constitution; and damages for the
Church’s benefit. (App. 107-108).
Petitioners moved to dismiss for lack of subject matter
jurisdiction, arguing that, under the First Amendment’s
ecclesiastical abstention doctrine, the court could not
adjudicate the claims. Initially, on September 4, 2015,
the superior court granted the motion, ruling principally
that the complaint failed to demonstrate that the alleged
financial misdeeds violated standards universally
applicable to all religious institutions. (App. 61-65). It
also found that the First Amendment did not allow for
relief regarding Turner’s and Moore’s duties or the status
of the church constitution. (App. 60). On November 19,
2015, the superior court denied Petitioners’ motion for
reconsideration or for leave to amend. (App. 41-46). The
claims against the bank survived.
One month later, the District of Columbia Court of
Appeals issued an opinion addressing similar claims
regarding another church (the “Moon decision”). The
superior court sua sponte called for briefing as to whether
it should reconsider and reverse its decision. (App. 29-30).
On February 16, 2016, the superior court did reverse its
prior order, ruling that, under the Moon decision, the
claims against Moore and BCIC could proceed because

11
they could be adjudicated under neutral principles of
law without intruding into areas prohibited by the First
Amendment. (App. 33-36). The superior court also ruled
that the claims against Turner were barred by res judicata
(App. 38-39), but Turner nonetheless is participating in
this appeal.
On January 16, 2019, the D.C. Court of Appeals
affirmed in a per curiam, unreported, non-precedential
opinion. (App. 3-17). The decision is not publicly available
on Westlaw. Contrary to the core premise of the Petition,
the decision expressly acknowledges that the ecclesiastical
abstention doctrine applies both to reliance on dogma
and to interference with church governance: “the First
Amendment requires civil courts to abstain from disputes
over ‘matters of church government as well as those of faith
and doctrine.’” (App. 12) (quoting Hosanna-Tabor Evangelical
Lutheran Church & Sch. v. E.E.O.C., 565 U.S. 171, 186 (2012)
(in turn quoting Kedroff v. Saint Nicholas Cathedral of
Russian Orthodox Church in N.A., 344 U.S. 94, 116 (1952)).
Applying the well-recognized rule that the ecclesiastical
abstention doctrine does not apply where claims can be
decided under neutral principles of law without encroaching
on areas protected by the First Amendment, the court held
that Respondents’ claims were standard common-law vehicles
for recovering misappropriated funds or remedying breaches
of fiduciary duty. (App. 14). Moreover, because the Church
had formally adopted the 1997 Constitution as its governing
document, courts could apply its provisions without violating
the First Amendment. (App. 14-16). The court thus affirmed
the superior court’s decision and subsequently denied
Petitioners’ requests for rehearing. (App. 1-2, 17).

12
REASONS FOR DENYING THE WRIT
Petitioners have plundered and wasted Church assets,
bypassing the provisions of the Church constitution that
prohibit such unilateral, unauthorized, and surreptitious
conduct. Their actions are textbook examples of commonlaw breaches of fiduciary duty, conversion, and unjust
enrichment. Securing restitution for these wrongful acts
does not implicate church dogma or governance. It merely
requires Petitioners to compensate the Church for what
they purloined or squandered without authorization.
The courts have long accepted and exercised their
obligation to ensure that church leaders obey secular
laws governing property rights, torts, contracts, and
criminal conduct. Even Petitioners do not suggest that
the First Amendment shields religious leaders from
liability for their violations of valid neutral laws. Yet, under
the guise of a contrived split of authority regarding the
proper First Amendment test for applying those laws,
Petitioners seek the extraordinary relief of immunizing
church leaders from civil liability for misappropriating
and misusing Church assets. In holding that Petitioners
enjoy no such blanket immunity, the D.C. Court of Appeals
applied the standard test fully consonant with this Court’s
precedent. As one state court aptly put it, “Plaintiffs have
not presented a religious or doctrinal question for the civil
court to resolve; instead, Plaintiffs have alleged a simple
claim of misappropriation of funds, which is proscribed
by valid neutral laws.” Griffin v. Cudjoe, 276 P.3d 1064,
1069 (Okla. Ct. App. 2012).
Because the courts undoubtedly enjoy subject matter
jurisdiction to redress clear misconduct involving church

13
property, Petitioners offer a strained argument that the
lower courts are split as to the proper test for applying
the ecclesiastical abstention doctrine. As shown below,
no such split exists. The courts utilize the same test and
apply it consistently. Petitioners thus posit a hole in the
law that simply does not exist. There is no circuit split, no
unresolved question by this Court regarding the standard
for applying the ecclesiastical abstention doctrine, and
no departure by the D.C. Court of Appeals from settled
norms. This case does not present any issue warranting
a grant of certiorari.
I.

No Split of Authority Exists as to the Standards for
Applying the Ecclesiastical Abstention Doctrine.

Petitioners argue that certiorari is required to resolve
“a deep and irreconcilable split” concerning whether the
ecclesiastical abstention doctrine preempts claims that
intrude “into church governance” where the claims may
be resolved by neutral principles of law without resort
to religious doctrine. (Pet. 16). No such split exists. Both
this Court’s precedents and the purportedly divergent
authority cited by Petitioners establish that excessive
intrusion into church governance is preempted regardless
of whether religious doctrine is implicated.
A.

Hosanna-Tabor Already Decided this Question.

In Hosanna-Tabor, this Court squarely confirmed that
the ecclesiastical abstention doctrine prohibits claims that
unduly interfere with church governance. Holding that
the First Amendment shields a church from liability for
employment discrimination against a religious employee,
the Court explained:

14
Requiring a church to accept or retain an
unwanted minister, or punishing a church
for failing to do so, intrudes upon more than
a mere employment decision. Such action
interferes with the internal governance of the
church, depriving the church of control over the
selection of those who will personify its beliefs.
Hosanna-Tabor 565 U.S. at 186. It thus is settled law that
ecclesiastical abstention requires courts to abstain from
adjudicating claims that interfere with church governance
where religious doctrine is not implicated. Indeed, it was
settled law long before Hosanna-Tabor. As Hosanna-Tabor
noted, the Court’s 1952 decision in Kedroff had observed
that its 1872 decision in Watson v. Jones, 13 Wall. 679
(1872), established that the First Amendment precludes
judicial intervention in both church governance and
religious doctrine. Kedroff stated that Watson “radiates
... a spirit of freedom for religious organizations, an
independence from secular control or manipulation—in
short, power to decide for themselves, free from state
interference, matters of church government as well as
those of faith and doctrine.” Hosanna-Tabor, 565 U.S. at
185-86 (citing Kedroff, 344 U.S. at 116 (emphasis added)).
Though Petitioners strain mightily to contend that HosannaTabor left the issue open, see Pet. 33-36, they fail to identify
any particular basis for further dispute.
B. The District of Columbia, the Circuits, and the
Other States All follow Hosanna-Tabor.
Petitioners assert that the District of Columbia
(particularly in the decision below), the Second Circuit,
and New Jersey limit the ecclesiastical abstention doctrine

15
to claims that implicate church doctrine. Petitioners call
this a “one-part test.” To create the impression of a circuit
split, Petitioners then contend that the Fifth and D.C.
Circuits and Texas, Mississippi, and North Carolina apply
a different “two-part” test, which supposedly examines
first whether a claim can be adjudicated under “neutral
principles of law” and, second, whether it implicates
church governance. Close analysis of the cited cases
demonstrates that Petitioners’ claimed divide is fictitious.
The supposed “one-part” and “two-part” tests are the
same; the law in D.C., the Second Circuit, and New Jersey
is no different than that in the five cited jurisdictions. The
purported disparity merely reflects factual differences in
cases where church autonomy was, or was not, at issue.
To put it bluntly, Petitioners’ “deep and irreconcilable
split” is made of whole cloth. They do not cite a single
case or secondary authority that recognizes the division.
Nor do they explain how such a split could exist in light
of Hosanna-Tabor’s definitive holding. Petitioners rely on
only three cases (the non-precedential per curiam decision
below, one Second Circuit case, and one New Jersey case)
for their alleged “deep and irreconcilable split,” and even
those cases do not support their theory. If the rift were
real, there would be better evidence than this.
1. D.C. Petitioners plainly err regarding District of
Columbia law. The decision below explicitly recognized
that the ecclesiastical abstention doctrine can prohibit
claims that intrude into church governance without regard
to religious doctrine. Prior D.C. precedent does as well.
a. Far from acknowledging Hosanna-Tabor and
Kedroff “only in passing,” Pet. 25, the first sentence

16
of the lower court’s decision’s discussion of this issue
quoted the key language from those cases: “[Petitioners]
claim to be immune from suit because, generally speaking,
the First Amendment requires civil courts to abstain from
disputes over ‘matters of church government as well as those
of faith and doctrine.’” (App. 12) (emphasis added) (quoting
Hosanna-Tabor. 565 U.S. at 186, and Kedroff, 344 U.S. at
116). The court then expressly ruled that governance issues
were not presented by the facts of the case: “As set forth in
the complaint, the main issues here appear to be entirely
secular and to be governed entirely by neutral principles
of law. They are not issues of religious doctrine, church
governance, or the like[.]” (App 13) (emphasis added). It
explained that “[t]hey are simply issues of the permissible
use or disposition of Church property; they primarily
boil down to whether Turner, with Moore’s and BCIC’s
assistance, misappropriated the Church’s money for his
own use and encumbered or disposed of the Church’s real
estate without the authorization required by the Church
Constitution.” (App. 14). The court’s holding removes all
possible doubt:
We therefore hold that the litigation may
proceed, with the understanding that “going
forward, if it becomes apparent to the trial
court that this dispute does in fact turn on
matters of doctrinal interpretation or church
governance, the trial court may grant summary
judgment to avoid ‘excessive entanglement with
religion.’”
(App. 17) (emphasis added) (citations omitted).

17
Petitioners’ core premise thus is fundamentally wrong.
The D.C. Court of Appeals applied the correct test and
simply reached a conclusion that Petitioners do not like. It
left the door open to revisit the issue as the case proceeds
below.
b. Petitioners’ characterization of the D.C. Court
of Appeals’ formulation of the ecclesiastical abstention
doctrine as a “one-part” test also is incorrect. The decision
expressly allows for consideration of (a) whether the case
can be decided by neutral principles of law, and (b) whether
that result infringes on interests protected by the First
Amendment: “We further conclude that, at this early stage
of the proceedings, the ecclesiastical abstention doctrine
does not require dismissal of the suit, because it appears
that appellants’ liability may be adjudicated under neutral
principles of tort law without infringing on appellants’
claimed First Amendment immunity.” (App. 4) (emphasis
added). See also App. 16 (“Thus, at this early stage of the case,
it would appear that this dispute is susceptible to resolution by
‘neutral principles of law’ not requiring any forbidden inquiry
into matters barred by the First Amendment.”) (internal
quotation marks and citation omitted). The second element
of the test articulated by the D.C. Court Appeals—whether
deciding the case under “neutral principles” would still infringe
on constitutionally protected interests—addresses Petitioners’
concern about coercive judicial intrusion into church autonomy.
Tellingly, Petitioners cite no D.C. case ruling that
non-doctrinal interference with church governance is not
protected by the First Amendment, nor do they cite any D.C.
case that refused to consider the impact of a non-doctrinal
judicial decision on church governance. Their concern is
purely conjectural.

18
c. Like the decision below, established D.C. precedent
recognizes the rule that matters of church governance
are non-justiciable. See Second Episcopal Dist. African
Methodist Episcopal Church v. Prioleau, 49 A.3d 812,
818 (D.C. 2012) (“if it becomes apparent to the trial
court that this dispute does in fact turn on matters of
doctrinal interpretation or church governance, the trial
court may grant summary judgment to avoid “excessive
entanglement with religion”) (emphasis added); Steiner
v. Am. Friends of Lubavitch, 177 A.3d 1246, 1255 n.4
(D.C. 2018) (same); Family Federation for World Peace v.
Moon, 129 A.3d 234, 253 n.26 (D.C. 2015) (same); id. at 248
(“The First Amendment seeks to preserve the autonomy
of religious entities to decide for themselves, free from
state interference, matters of church government as well
as those of faith and doctrine.) (emphasis added) (internal
quotation marks and citations omitted); United Methodist
Church v. White, 571 A.2d 790, 793 (D.C. 1990) (“[I]t is
well established that a civil court may not interfere in
matters of church government, as well as matters of faith
and doctrine.”) (emphasis added).
d. Petitioners’ assertion that the D.C. Court of
Appeals and the D.C. Circuit conflict, Pet. 22, also is
wrong. The D.C. Court of Appeals consistently looks to
the D.C. Circuit as a leading source for guidance on the
ecclesiastical abstention doctrine. See Prioleau, 49 A.3d
at 817 (“We find support for these conclusions in Minker
v. Baltimore Annual Conf. of United Methodist Church,
894 F.2d 1354 (D.C. Cir. 1990)”); Moon, 129 A.3d at 253
(quoting Minker and Costello Publ’g Co. v. Rotelle, 670
F.2d 1035 (D.C. Cir. 1981)); Pardue v. Ctr. City Consortium
Sch. of Archdiocese of Washington, Inc., 875 A.2d 669,
672 (D.C. 2005) (citing EEOC v. Catholic Univ. of Am.,
83 F.3d 455, 461 (1996), for the standards and adopting

19
its holding). Petitioners never identify any case citing
any point of disagreement, let alone any case identifying
conflicting standards.
e. Ample authority supports the D.C. Court of Appeals’
application of the “neutral principles of law” test to
claims regarding church property. This Court has long
recognized that trial courts may decide church property
disputes, even where the claims would require the court
to examine a church’s governing documents on secular,
non-doctrinal terms. See Jones v. Wolf, 443 U.S. 595, 603604 (1979) (approving use of “neutral principles of law”
test in property dispute involving church constitution);
see also Presbyterian Church v. Mary Elizabeth Blue
Hull Presbyterian Church, 393 U.S. 440, 449 (1969)
(“not every civil court decision as to property claimed
by a religious organization jeopardizes values protected
by the First Amendment”); Md. & Va. Eldership of the
Churches of God v. Church of God at Sharpsburg, 396
U.S. 367, 368 (1970) (Brennan, J., concurring) (applying
“neutral principles of law” standard to church property
dispute).
2. Second Circuit. Petitioners’ contention that
the Second Circuit excludes consideration of whether
Plaintiffs’ claims might interfere with church autonomy
rests upon one case, Martinelli v. Bridgeport Roman
Catholic Diocesan Corp., 196 F.3d 409 (2d Cir. 1999),
that does not even address the issue. Martinelli involved
potential diocese liability for child sexual abuse by a
parish priest based upon an alleged breach of fiduciary
duty arising from the diocese’s relationship to the priest.
The Second Circuit held that the jury’s consideration of
religious teachings showing the nature of the diocese’s

20
relationship to the priest did not violate the First
Amendment. Petitioners complain that Martinelli did
not consider whether the Second Circuit’s analysis might
damage the church’s relationship with its clergy or
interfere with internal church affairs. (Pet. 26). In other
words, they conjecture that the Second Court implicitly
applied a one-part “neutral principles” test, not that the
court actually articulated any such test. Petitioners do not
show that potential interference with clergy relationships
or internal church affairs even was an issue in the case, let
alone show that the Second Circuit’s evasion of that issue
was so egregious that it is fair to ascribe a rule of law to
the decision’s silence.
In reality, the Second Circuit uses the very test that
Petitioners advocate. The Second Circuit’s lead decision
on ecclesiastical abstention unequivocally holds that “[t]
he Free Exercise Clause protects a ‘church’s right to
decide matters of governance and internal organization.’”
Rweyemamu v. Cote, 520 F.3d 198, 208 (2d Cir. 2008)
(quoting Petruska v. Gannon Univ., 462 F.3d 294, 307
(3d Cir. 2006)). Cote discussed several rationales for why,
“[s]ince at least the turn of the century, courts have
declined to interfere [] with ecclesiastical hierarchies,
church administration, and appointment of clergy.” Id. at
204-205 (alteration in original, internal quotation marks
omitted). As to the Second Circuit, therefore, Petitioners’
claim of a conflict is wholly unfounded.
3. New Jersey. Petitioners’ lone New Jersey case, F.G.
v. MacDonell, 696 A.2d 697 (1997), allowed a claim for
breach of fiduciary duty arising from a priest’s seduction
of a parishioner during pastoral counseling. According
to Petitioners, F.G. implicitly applied a “one-part” test

21
because it did not discuss the impact that imposing
such a duty would have on the church. (Pet. 26). As with
Martinelli, Petitioners fail to demonstrate how such an
omission establishes even an implicit rule of law and is
not simply an innocuous consequence of specific facts that
did not implicate church governance.
The lead New Jersey case on ecclesiastical abstention,
McKelvey v. Pierce, 800 A.2d 840 (2002)—ignored by
Petitioners—recognizes that matters of church governance
are protected under the First Amendment. See id. at 851
(“The church autonomy doctrine is also based on ‘a long
line of Supreme Court cases that affirm[s] the fundamental
right of churches to “decide for themselves, free from
state interference, matters of church government as
well as those of faith and doctrine.”’”) (quoting Catholic
Univ., 83 F.3d at 462 (in turn quoting Kedroff, 344 U.S. at
116)). McKelvey explains New Jersey’s church-autonomy
doctrine as follows:
If, however, the dispute can be resolved by
the application of purely neutral principles of
law and without impermissible government
intrusion (e.g., where the church offers no
religious-based justification for its actions and
points to no internal governance rights that
would actually be affected), there is no First
Amendment shield to litigation.
Id. at 856 (emphasis added). This is precisely the test
that Petitioners insist is not applied in New Jersey, and
it predates Hosanna-Tabor by a decade. See also Alicea
v. New Brunswick Theological Seminary, 608 A.2d 218,
223 (1992) (citing “the threat of regulatory entanglement”

22
and “the primarily-doctrinal nature of the underlying
dispute” as separate factors that “mandate[] abstention”).
***
D.C., the Second Circuit, and New Jersey do
not depart from how other jurisdictions apply the
ecclesiastical abstention doctrine. The purportedly “deep
and irreconcilable split” that Petitioners suggest simply
does not exist.
4. The five jurisdictions that, according to Petitioners,
apply a different test than the District of Columbia in
fact apply the same test—that is, the test reinforced
in Hosanna-Tabor and articulated long ago in Kedroff.
Petitioners’ distinctions draw from discussions of the facts
of those cases, not any articulation of law that creates a
bona fide conflict.
a. Fifth Circuit. Petitioners cite Combs v. Cen. Tex.
Annual Conf. of the United Methodist Church, 173 F.3d
343 (5th Cir. 1999), as the lead authority for the twopart test. Combs held that courts may not probe into the
employment relationship between church and minister
as “that would be inherently coercive even if the alleged
discrimination were purely nondoctrinal” and would
require the court to intrude into “the internal management
of a church,” in violation of the First Amendment. Id at
350. As discussed above, this black-letter analysis, later
validated conclusively by Hosanna-Tabor, is consonant
with D.C. law. The difference is factual: in Combs, church
governance was at issue; here, it is not.

23
b. D.C. Circuit. As discussed above, the leading
D.C. Circuit cases—Catholic University, Minker, and
Costello—comport with, and indeed are cited frequently
by, the D.C. Court of Appeals. Petitioners point to Catholic
University as establishing a conflict, but there, too,
they confuse factual differences for legal distinctions.
Like Combs, Catholic University is a straightforward
ministerial employment case. It challenged the denial of a
religious instructor’s tenure by a department of canonical
law under pontifical control. The trial court stopped the
case when it was asked to determine the qualifications of
an expert in canon law, realizing that it was getting close
to entanglement. Again, the facts at issue posed a clear
question of interference in internal church affairs.
D.C. Circuit authority also is consistent with—not
contrary to—the ruling below that the superior court
may construe and apply the Church’s constitution to
determine whether Turner and Moore had authority to
engage in their improprieties and whether the constitution
was improperly amended. See Pet. 9. In Minker, the D.C.
Circuit explained:
It is true that not all provisions of a religious
constitution are immune from civil court
interpretation. In Jones v. Wolf, the Court
adopted the neutral principles test which
permits a court to interpret provisions of
religious documents involving property rights
and other nondoctrinal matters as long as the
analysis can be done in purely secular terms. In
doing so, the Court cited with approval a state
court’s application of the Book of Discipline to
a property dispute between a church and its
congregation.

24
Minker, 894 F.2d at 1358-59 (emphasis in original) (citing
Jones, 443 U.S. at 603); see also Md. & Va. Eldership, 396
U.S. at 368 (per curiam). It is difficult to square Minker’s
clear analysis that courts may construe non-doctrinal
provisions in religious documents to resolve secular
disputes with Petitioners’ view that the D.C. Circuit and
the D.C. Court of Appeals apply conflicting standards.
c. Texas. Petitioners cite Westbrook v. Penley, 231
S.W.3d 389 (Tex. 2007), which addressed a question of
church discipline. A congregant sued a pastor for violating
counseling confidentiality by disclosing revelations about
an extramarital affair. Although disclosure breached the
pastor’s professional obligations as a licensed counselor,
he was required to disclose the communication to the
church pursuant to church tenets that the plaintiff
had accepted. Westbrook held that, because the pastor
acted in a dual capacity, “parsing those roles … would
unconstitutionally entangle the court in matters of church
governance and impinge on the core religious function of
church discipline.” Id. at 392. Here, too, the distinctions
with this case are factual, not legal.
d. Mississippi. Petitioners’ contention that Schmidt
v. Catholic Diocese of Biloxi, 18 So. 3d 814 (Miss. 2009),
considered “exactly the same circumstances as this case
and reached the exact opposite result,” Pet. 19, is wrong.
Plaintiff in Schmidt brought three claims. The first
claim, seeking to establish a trust for misused church
funds, was dismissed due to lack of standing because the
church in question had dissolved. See id. at 828 (“Because
such church or parish no longer exists, Plaintiffs have no
standing to assert a claim for any interest they may or
may not have had in church property.”). Contrary to the

25
Petition, this claim was not dismissed due to the First
Amendment. Schmidt next held that the two other claims
involving misuse of funds (breach of fiduciary duties and
intentional misrepresentation) could proceed under the
“neutral principles of laws” test. In arguing otherwise,
Petitioners omit key text (highlighted below) and ignore
the court’s actual holding:
Generally, civil courts may not secondguess church administrative or management
decisions or substitute their judgment in place
of the church’s. … We find that the chancellor
correctly determined that our courts may
not consider whether Church Defendants’
management or administrative decisions were
fiscally irresponsible, or whether those decisions
were in the best interests of parishioners. But,
for the reasons set forth below, we find that
the chancellor erred in dismissing Plaintiffs’
claim(s) that Church Defendants improperly
diverted designated funds.
While churches have large, almost-unfettered
discretion in their administrative decisionsmaking, they are not entitled to violate
recognized duties or standards of conduct.
Morrison recognizes a church or religious
organization’s potential liability for diverting
funds which have been solicited and
accepted for a particular purpose, toward an
unauthorized purpose.
Id. at 829-830 (emphasis added, internal citation omitted).
See also id. at 831 (“We simply find that a religious entity

26
is not exempt from these types of suits in a court of law.”).
Rather than conflicting with the decision below, Schmidt
validates it. Petitioners’ argument that this ruling in
Schmidt is immaterial because plaintiff ’s recovery
was limited to earmarked donations is erroneous. The
recovery was limited due to the lack of standing, not the
ecclesiastical abstention doctrine.
e. North Carolina. Finally, Petitioners’ contention that
Harris v. Matthews, 643 S.E.2d 566 (N.C. 2007), directly
supports their position because it rejected claims involving
misuse of church funds is clearly wrong. Unlike the facts
here, plaintiffs did not argue that the challenged actions
were ultra vires because the defendants lacked authority
under the governing church constitution or bylaws.
Instead, plaintiffs challenged the church officials’ roles
and exercise of judgment, which necessarily implicated
questions of church governance and religious doctrine:
Plaintiffs do not ask the court to determine who
constitutes the governing body of Saint Luke or
whom that body has authorized to expend church
resources. Rather, plaintiffs argue Saint Luke
is entitled to recover damages from defendants
because they breached their fiduciary duties
by improperly using church funds, which
constitutes conversion. Determining whether
actions, including expenditures, by a church’s
pastor, secretary, and chairman of the Board of
Trustees were proper requires an examination
of the church’s view of the role of the pastor,
staff, and church leaders, their authority
and compensation, and church management.
Because a church’s religious doctrine and

27
practice affect its understanding of each of
these concepts, seeking a court’s review of
the matters presented here is no different
than asking a court to determine whether a
particular church’s grounds for membership
are spiritually or doctrinally correct or whether
a church’s charitable pursuits accord with the
congregation’s beliefs. None of these issues can
be addressed using neutral principles of law.
Id. at 571 (emphasis added). Thus, the court applied
the “neutral principles” test and reached the opposite
conclusion of the court below because the facts were
different than those here. Harris is fully consistent with
D.C. law.
***
Petitioners do not show any true conflict among
the lower courts. To the contrary, the test is settled,
the analyses are remarkably uniform, and the results
relatively consistent when accounting for material factual
differences. The D.C. Court of Appeals’ test for applying
the ecclesiastical abstention doctrine is no different than
the test applied in other jurisdictions.
II. No Split of Authority Exists as to Whether Courts
May Consider Remedies When Applying the
Ministerial Exception.
Petitioners’ second issue for review warrants only
abbreviated consideration. No split, let alone a “dramatic
split,” Pet. 28, exists as to whether courts may look at
remedies when considering whether subject matter

28
jurisdiction exists under the ministerial exception. Courts
may consider remedies as part of the overall determination
of whether a plaintiff’s claims would interfere with church
autonomy, but the failure to address remedies in detail
does not constitute a fatal flaw.
To concoct a split, Petitioners contend that D.C.
and Puerto Rico courts “analyze liability only,” not
remedies, whereas the D.C. Circuit and Mississippi courts
examine both. (Pet. 28). They cite but one case from each
jurisdiction, none of which discusses any definitive legal
test about how remedies should be handled.
For D.C., the only case cited is the decision below.
Petitioners complain that the decision did not address
remedies directly, and, from that silence, contend that the
D.C. Court of Appeals “concentrates” on liability to the
exclusion of remedies. (Pet. 28). Inferring such a broad
principle of law from mere silence in an unreported per
curiam non-precedential decision is dubious, to the say
the least. But here Petitioners do not even try to show
that this is the rule in D.C. courts. In Samuel v. Lakew,
116 A.3d 1252 (D.C. 2015), the D.C. Court of Appeals
applied ecclesiastical abstention because a requested
remedy showed that the plaintiff did not seek to enforce
“a provision of the ‘corporate charter or the constitution
of the general church ... [specifying] ... that the [local]
church property is held in trust for the general church,”
but instead sought to control property based on arguments
that required the court to resolve theological issues. Id. at
1260. The requested remedy was pivotal to the decision.
No D.C. case states that remedies may not be considered.

29
Petitioners’ lone Puerto Rico case, Feliciano v. Roman
Catholic and Apostolic Church, 200 DPR 458 (P.R. 2018),
cert. pet. pending, No. 19-921, also is inapposite. That case
involves secular contract disputes between the church
and hundreds of teachers and employees of Catholic
schools and academies over termination of their pension
plans and lost retirement benefits. Petitioners complain
that the court ordered substantial relief (garnishment of
church assets) without considering the impact on church
operations, but, there too, the issue of constitutionally
permissible remedies simply was not addressed. No legal
principle can be derived from a single decision’s failure to
consider a problem that was not raised.
Petitioners’ reliance on Costello Pub. Co. v. Rotelle,
670 F.2d 1035 (D.C. Cir. 1981), demonstrates the weakness
of this argument. In Costello, the D.C. Circuit merely
cautioned in a footnote that, when considering potential
remedies, the district court should be sure to balance
antitrust interests against the First Amendment interests
of any religious organizations involved. Id. at 1050 n.31.
This is a far cry from a holding that, at the pleading stage,
on a motion to dismiss, courts must consider remedies
and must dismiss a complaint if any possible relief might
intrude upon church autonomy. Indeed, Costello actually
undermines Petitioners’ position, as it observes that this
“difficult constitutional question should be deferred until
[liability] questions are resolved.” Id. at 1050. In other
words, the “tail” of potential remedies should not wag
the “dog” of whether to apply the ecclesiastical abstention
doctrine at the pleading stage. Rather, where, as here,
certain remedies plainly will not infringe on First
Amendment principles, the question of whether another
remedy might do so does not divest a court of subject

30
matter jurisdiction and must instead await resolution of
liability.
Petitioners’ final case, Greater Fairview Missionary
Baptist Church v. Hollins, 160 So. 3d 223 (Miss. 2015),
merely addressed a straightforward employment dispute
where a pastor sought to enjoin a church vote to remove
him from his position. The court declined to get involved
in that ministerial termination decision based on wellestablished First Amendment precedent, not because the
requested remedy was too intrusive.
These cases do not demonstrate any conflict warranting
this Court’s review.
Finally, Petitioners’ factual discussion of the remedies
is badly flawed. They complain that the D.C. Court of
Appeals never considered “whether the case intruded
coercively into the church’s right to self-governance,” and
complain that it should have considered whether the “broad
equitable relief sought by the complaint” could “deprive
the church of its right to choose its pastor.” (Pet. 25).
But the complaint does not seek relief directly affecting
the pastor’s responsibilities beyond an order precluding
his control over financial assets. The gravamen of the
complaint is restitution for the assets that Petitioners
pilfered or wasted—which does not implicate church
autonomy. To the extent Petitioners chide the lower courts
for failing to consider the potential impact of remedies
that are not at issue (i.e., the church’s choice of pastor),
Petitioners underscore the substantial gap between the
actual issues in the case and their fictive portrayal of it.

31
C.

This Case Does Not Cleanly Present the First
Amendment Issues.

In addition to the absence of a legitimate split of
authority, this case includes facts that either complicate
or could moot Petitioners’ First Amendment issues.
1. To the extent Petitioners rely on the remedies
sought in the complaint to suggest a split of authority,
that argument is premature. They complain that two of
the five requested remedies arguably touch upon church
governance: an injunction against Turner and Moore’s
control over financial assets, and a declaratory judgment
as to whether the 1997 Constitution was properly amended
according to its terms and replaced by the current
bylaws. But even if so—and as explained supra, the
question about the validity of the new bylaws is justiciable
under Jones v. Wolf—the superior court can address the
propriety of those remedies in subsequent proceedings
following a determination of liability. Much of this case
is about obtaining damages resulting from Petitioners’
misappropriation and waste of Church assets. No case
cited by Petitioners holds that courts lack subject matter
jurisdiction over a complaint seeking restitution merely
because a secondary requested remedy might implicate
church governance, and at least one case they cite—the
D.C. Circuit’s decision in Costello—says the opposite.
2. Petitioners’ and amici’s concerns about standing
also show that this case is inappropriate for certiorari.
The decision below expressly reserved on the question
of standing because “there remains a genuine factual
dispute” on standing. See App. 11 & n.11. Petitioners do
not seek review of that determination, but their Petition

32
nonetheless weaves standing into their narrative to create
an appearance of an issue warranting review. Amici
seize on that narrative and raise standing directly. But
the factual development that the D.C. Court of Appeals
ruled was necessary is now occurring in the superior
court, which recently decided to resolve the standing
issue before proceeding further with the litigation. This
litigation over standing means not only that that issue is
unripe for certiorari, but also that the Petition is a weak
candidate for certiorari, as the case might be dismissed
on other grounds.
3. BCIC’s secular status as a corporation created
to receive funding from government agencies that the
Church cannot receive because of its religious status
(App. 77-78) makes this case sui generis. BCIC was
formed as a secular nonprofit precisely to avoid the
First A mendment’s proscriptions on government
funding of religious organizations, id., but it now claims
to be a religious organization in order to benefit from
the First Amendment’s protections. Here, too, factual
development is needed before a determination can be
made that its role in the alleged misconduct was not
secular.

33
CONCLUSION
For the foregoing reasons, the Petition should be
denied.
Respectfully Submitted,
Seth A. Rosenthal
Calvin R. Nelson
Venable LLP
600 Massachusetts Avenue, N.W.
Washington, DC 20001
(202) 344-4000

Mitchell Y. Mirviss
Counsel of Record
Peri Tenenbaum
Venable LLP
750 East Pratt Street,
Suite 900
Baltimore, MD 21202
(410) 244-7400
mymirviss@venable.com

Counsel for Respondents
November 4, 2019

